<html>
<title> - HARNESSING SMALL BUSINESS INNOVATION: NAVIGATING THE EVALUATION PROCESS FOR GULF COAST OIL CLEANUP PROPOSALS</title>
<body><pre>[Senate Hearing 111-1123]
[From the U.S. Government Publishing Office]






                                                       S. Hrg. 111-1123

                 HARNESSING SMALL BUSINESS INNOVATION:
 NAVIGATING THE EVALUATION PROCESS FOR GULF COAST OIL CLEANUP PROPOSALS

=======================================================================

                                HEARING

                               BEFORE THE

            COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 17, 2010

                               __________

    Printed for the Committee on Small Business and Entrepreneurship



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





         Available via the World Wide Web: http://www.fdsys.gov





                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
73-969 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









            COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP

                     ONE HUNDRED ELEVENTH CONGRESS

                              ----------                              
                   MARY L. LANDRIEU, Louisiana, Chair
                OLYMPIA J. SNOWE, Maine, Ranking Member
JOHN F. KERRY, Massachusetts         CHRISTOPHER S. BOND, Missouri
CARL LEVIN, Michigan                 DAVID VITTER, Louisiana
TOM HARKIN, Iowa                     JOHN THUNE, South Dakota
JOSEPH I. LIEBERMAN, Connecticut     MICHAEL B. ENZI, Wyoming
MARIA CANTWELL, Washington           JOHNNY ISAKSON, Georgia
EVAN BAYH, Indiana                   ROGER WICKER, Mississippi
MARK L. PRYOR, Arkansas              JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland
JEANNE SHAHEEN, New Hampshire
KAY HAGAN, North Carolina
           Donald R. Cravins, Jr., Democratic Staff Director
              Wallace K. Hsueh, Republican Staff Director











                            C O N T E N T S

                              ----------                              

                           Opening Statements

                                                                   Page

Landrieu, Hon. Mary L., Chair, and a U.S. Senator from Louisiana.     1
Snowe, Hon. Olympia J., Ranking Member, and a U.S. Senator from 
  Maine..........................................................     6
Vitter, Hon. David, a U.S. Senator from Louisiana................     8
Shaheen, Hon. Jeanne, a U.S. Senator from New Hampshire..........     8

                               Witnesses

Rabago, Rear Admiral Ronald, Assistant Commandant For Acquisition 
  & Chief Acquisition Officer, Acquisition Directorate, U.S. 
  Coast Guard....................................................    11
Anastas, Paul, Ph.D., Assistant Administrator, Office of Research 
  and Development, U.S. Environmental Protection Agency..........    18
Smith, Eric N., Associate Director, Tulane Energy Institute, 
  Tulane University..............................................    38
Koons, Dan, C.I.Agent Solutions, Accompanied By Dan Parker, Found 
  and Chief Executive Officer, C.I.Agent Solutions...............    45
Baird, Heather E., Vice President, Corporate Communications, 
  Microsorb Environmental Products, Inc..........................    95
Mitchelmore, Carys L., Ph.D., Associate Professor, University of 
  Maryland Center for Environmental Science......................   100
Costner, Kevin, Founder, Costner Industries (CINC), and Co-
  Founder/Partner, Ocean Therapy Solutions, Westpac Resources....   122

          Alphabetical Listing and Appendix Material Submitted

Anastas, Paul, Ph.D.
    Testimony....................................................    18
    Prepared statement...........................................    20
    Responses to post-hearing questions from Members.............   167
Baird, Heather E.
    Testimony....................................................    95
    Prepared statement...........................................    98
    Response to post-hearing questions from Members..............   173
Costner, Kevin
    Testimony....................................................   122
    Prepared statement...........................................   125
    Response to post-hearing questions from Members..............   192
de Crecy, Eudes
    Prepared statement...........................................   201
Diamond, Charles M.
    Prepared statement...........................................   210
Green Blue Environmental
    Fact sheets..................................................   229
    Remediation Strategy, Deep Water Horizon Oil Spill...........   234
Koons, Dan
    Testimony....................................................    45
    Prepared statement...........................................    48
    Response to post-hearing questions from Members..............   180
Landrieu, Hon. Mary L.
    Opening statement............................................     1
    Two-page document............................................     4
Mitchell, Chip
    Letter.......................................................   218
Mitchelmore, Carys L.
    Testimony....................................................   100
    Prepared statement...........................................   102
Pryor Hon. Mark L.
    Prepared statement...........................................   197
Rabago, Rear Admiral Ronald
    Testimony....................................................    11
    Prepared statement...........................................    14
    Response to post-hearing questions from Members..............   146
Smith, Eric N.
    Testimony....................................................    38
    Prepared statement...........................................    40
Shaheen, Hon. Jeanne
    Opening statement............................................     8
    Prepared statement...........................................    10
Snowe, Hon. Olympia J.
    Opening statement............................................     6
    EPA document.................................................   142
Vitter, Hon. David
    Opening statement............................................     8
Wicker, Hon. Roger
    Prepared statement...........................................   198

 
HARNESSING SMALL BUSINESS INNOVATION: NAVIGATING THE EVALUATION PROCESS 
                  FOR GULF COAST OIL CLEANUP PROPOSALS

                              ----------                              


                        THURSDAY, JUNE 17, 2010

                      United States Senate,
                        Committee on Small Business
                                      and Entrepreneurship,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:06 a.m., in 
Room SD-G50, Dirksen Senate Office Building, Hon. Mary L. 
Landrieu (chair of the committee) presiding.
    Present: Senators Landrieu, Levin, Pryor, Cardin, Shaheen, 
Hagan, Snowe, and Vitter.

 OPENING STATEMENT OF THE HON. MARY L. LANDRIEU, CHAIR, AND A 
                  U.S. SENATOR FROM LOUISIANA

    Chair Landrieu. I would like to call the hearing to order 
this morning, and I want to thank the members who are here and 
those that have indicated that they will be coming. This is of 
great interest to our Committee.
    I want to begin by saying that the hearing is entitled 
``Harnessing Small Business Innovation: Navigating the 
Evaluation Process for the Gulf Coast Oil Cleanup Proposals.'' 
As the title indicates, we are here today to examine the 
process for evaluating cleanup proposals from the devastating 
national disaster which began on April 20th, which continues, 
unfortunately, until this day, and which will go on, even more 
unfortunately, for many months, if not years ahead in the Gulf 
of Mexico.
    There are a number of very important issues the Deepwater 
Horizon disaster has triggered at this hearing. This is the 
second hearing this Committee has conducted on this topic, and 
we will be hosting and sponsoring more in the days, weeks and 
months ahead.
    On May 27th, this Committee held a hearing to investigate 
the claims process. How is that working or not working for 
small businesses directly and indirectly affected by this 
disaster? To those small businesses, I will say, as I have been 
saying for weeks here in Washington and at home along the Gulf, 
if your business made $50,000 last year, or you or your 
business, and you did not make any money this year, BP is going 
to write you a check for $50,000. If you made $1 million last 
year in your business and you cannot make money this year or 
next year, BP is going to write you a $2 million check. This 
Committee is going to do its part to make sure that that claims 
process works.
    Now we are turning our attention to another important issue 
affecting small business. As I have said before, in Hurricanes 
Katrina and Rita, our business owners were up to their chins in 
water. Now because of this disaster, these same business owners 
find themselves up to their knees in oil. We want to find out 
how small businesses right there on the Gulf Coast and around 
the nation, with technology and innovation that can help clean 
up this oil, keep it off of our beaches and out of our marshes. 
How can we get these ideas, these new technologies and these 
new innovations deployed to the Gulf of Mexico?
    Today's hearing will cover the Federal evaluation process 
for technologies which can assist in cleaning up the oil. It is 
my hope that together we can find ways to improve the overall 
process and better understand how many businesses that have 
reached out to help the Gulf Coast region can play a role in 
the cleanup as we move forward.
    To accomplish that end, we have two panels before us. I 
will introduce them in a minute. Our first panel includes 
Federal officials who are playing a key role in reviewing and 
awarding contracts to businesses with cleanup proposals: Rear 
Admiral Ronald Rabago with the United States Coast Guard and 
Dr. Paul Anastas with the Environmental Protection Agency. We 
hope you will be able to let small businesses here in the 
audience and listening to these proceedings through radio, 
television and the Internet understand a little bit better how 
they might make their proposals known to you. Since we know 
there is always room for improvement, we hope you will be able 
to tell us what has been working, what is not working, and what 
we can do together to streamline this process.
    For our second panel, I would like to welcome some of our 
own small business owners and university officials that are on 
the front line. Some of them have had some limited success in 
contacting BP and the Coast Guard. Still others are trying to 
navigate what they think is a too confusing process, and we 
want to hear from them.
    As Chairman of this Committee, with the help of my Ranking 
Member--and able help, I might say, we have tried to make this 
a place where the voices of small business can be heard across 
sometimes the roar of partisanship and sometimes the roar of 
big business. We want small business to have a voice here in 
Washington, and that is what this hearing is about.
    Our goal is not to spotlight one technology over another or 
to pretend that there is a silver bullet that will immediately 
reverse what is happening. The most recent data from the Flow 
Rate Technical Group estimates as much as 60,000 barrels of 
oil--that is 2.5 million gallons--is gushing from this well 
every day. Our goal is to improve the effectiveness and 
efficiency in contracting with the Government to get this oil 
cleaned up and out of the water, the ocean, and the marshes as 
soon as possible. We are not here to highlight any single 
business but, rather, to learn from the businesses that have 
been able to succeed in their efforts or not succeed to see 
what we can do to make it better.
    From the restaurants, distributors, and suppliers in every 
corner of the world that rely on the seafood that comes from 
the Gulf, this is very important. As such, every idea, every 
business, large or small, must have the opportunity to provide 
input on how to clean up the oil, and I should say credible 
businesses and credible technologies. We are trying to preserve 
the way of life for more than 27,000 direct jobs in the 
Louisiana seafood industry alone that depend on industries 
along the Gulf Coast.
    This is not the first time that you are hearing from the 
Small Business Committee. As I said, we have had hearings in 
the past, and we intend to do so in the future.
    In the spirit of transparency, as I conclude this brief 
opening statement, I have asked my staff to put together--and I 
hope they will put it up for review--a two-page document that 
we suggest could be helpful to small businesses who want to 
submit a product or an idea for the Unified Command or BP. 
Instructions to fill out the form as well as the website to 
submit this information have been put into a single place. 
These forms will be available following the hearing today on 
our website.
    [The document follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Lastly, I would like everybody to check the Unified Command 
website regularly for the most up-to-date information. I thank 
the members of this Committee who have contributed to this 
hearing for their ideas about this document that is being 
circulated as I speak, and we hope this hearing will give us 
some ideas about how to move forward.
    I am going to turn it over to Senator Snowe for an opening 
statement. Senator Snowe.

OPENING STATEMENT OF HON. OLYMPIA J. SNOWE, RANKING MEMBER, AND 
                   A U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Chair Landrieu, for holding what 
is a very critical hearing today on what is undoubtedly the 
worst environmental disaster in the history of this nation. 
Words cannot express how devastating this calamity is to the 
Gulf Coast, especially the families of the 11 workers who lost 
their lives when the rig exploded on April 20th.
    As Ranking Member of both this Committee and the Commerce 
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard, 
I believe that indisputably it is the size of the spill that 
must dictate our response to this disaster and how we mitigate 
its horrific effects.
    With 2.5 million gallons of oil hemorrhaging into the Gulf 
every day, equivalent to an Exxon Valdez size spill every 4 to 
5 days and oil now reaching the coastlines of Alabama and 
Florida, it is clear that the Federal Government is failing to 
deploy and bring to bear the equipment and technology this 
disaster demands.
    Indeed, in a letter to the President 2 weeks ago, I urged 
that he seize the reins of crisis response from BP and 
establish a single point of Federal accountability for 
approving new and innovative technologies and methodologies to 
protect the oceans, bays, beaches, and wetlands that sustain 
the Gulf Coast economy and nurture an entire way of life now in 
jeopardy of being lost, because the Federal Government is the 
only entity, in stark contrast to BP, whose sole responsibility 
is to the public interest of the American people. Yet, 
regrettably, we have witnessed little evidence that the tempo 
of the response has been meaningfully accelerated, and serious 
questions remain about the clarity and the effectiveness of the 
chain of command. Indeed, as the small businesses here today 
will testify, they often continue to find themselves ensnared 
in the bureaucratic quagmire as a result of a process with no 
unified approach for evaluating and improving their 
entrepreneurial solutions to this unparalleled catastrophe.
    Rather inexplicably, a dual-track system remains in place 
with BP vetting some ideas while the Federal Government 
examines others, and that is a recipe for inefficiency and 
inconsistency with the results that some new and unverified 
ideas are expedited for implementation while other proven 
technologies may be overlooked, delayed, or erroneously 
dismissed.
    So on our first panel, I expect Coast Guard Rear Admiral 
Ronald Rabago and Dr. Paul Anastas of the Environmental 
Protection Agency to provide details of the Interagency 
Alternative Technology Assessment Program, and in particular 
why it was not fully operational until June 4th. Six weeks 
after the initial explosion occurred, why is it that of the 
1,600 to 1,700 concepts submitted, I understand not one idea 
has yet to be accepted and why the Federal program continues to 
operate parallel with another system BP has already established 
to review new technologies which itself has resulted in the 
implementation of just 10 to 15 new devices or response 
strategies out of the more than 90,000 ideas received?
    Which leads us to our second panel, where we will have 
testimony from some of the creators of these ideas, including 
Dan Parker of C.I.Agent Solutions, Heather Baird of MicroSorb 
Environmental Products, and Kevin Costner of Ocean Therapy 
Solutions. All three will discuss how businesses with the 
alternative technologies are confronted with needless 
roadblocks resulting from a dysfunctional process. We will also 
hear from two academics, Professor Eric Smith of Tulane 
University and Dr. Carys Mitchelmore of the University of 
Maryland, who have extensive experience in oil spills and 
specific technologies used to combat them. We appreciate all of 
you taking the time to appear before our Committee today.
    We have an obligation to determine why proven technologies, 
like those produced by Ms. Baird's company, which BP itself has 
used in the past, have been languishing in warehouses for 
nearly 2 months since the spill began, despite their potential 
contributions to the response effort. Meanwhile, the 
Environmental Protection Agency and the Coast Guard took just 
10 days to approve the application of Corexit, despite the fact 
that it is a dispersant chemical of dubious toxicity, which has 
never been used before in such quantities, and it has never 
been employed beneath the ocean surface, never mind at a depth 
of nearly a mile. Yet despite the reality that the 
environmental ramifications of this strategy had never been 
studied, BP was permitted to apply in some cases more than 
15,000 gallons per day. This double standard of approval is 
made all the more disconcerting by the revelation in the 
Houston Chronicle that this dispersant is produced by a company 
with corporate ties to BP. So exactly how is it that BP 
successfully convinced EPA to approve this toxic solution, but 
small businesses with non-toxic containment and remediation 
solutions are subjected to months of meticulous review?
    So today it is crucial that we ascertain just exactly why 
we have two parallel approval processes, one for BP and one for 
the Federal Government, and what possible advantage could that 
provide. Moreover, precisely what testing did the EPA and the 
Coast Guard conduct prior to allowing the subsea application of 
dispersants in the first place? And how is it that American 
small businesses are now being subjected to a process that 
appears to lack any semblance of standardization or consistency 
that will allow us to effectively and efficiently protect our 
invaluable natural resources?
    It is, frankly, inconceivable that 20 years have elapsed 
since the Exxon Valdez disaster with no detectable enhancement 
of our ability to attack a spill of any magnitude. It would now 
be unconscionable to continue to shackle the kind of innovation 
that could allow us to rise to the Herculean challenge before 
us.
    It is, therefore, paramount that the Federal Government 
finally begin to move with due urgency that has been 
conspicuously lacking because ultimately we have an obligation 
to leave no stone unturned in instituting a thoroughly timely 
and rational process to fast-track the review of all 
technologies and methodologies that have the potential to 
contain and to stem the flow of oil and to mitigate the damage 
already inflicted.
    Thank you, Madam Chair.
    Chair Landrieu. Thank you. I am going to ask Senator Vitter 
and Senator Shaheen for a very brief opening statement.

  OPENING STATEMENT OF HON. DAVID VITTER, A U.S. SENATOR FROM 
                           LOUISIANA

    Senator Vitter. Thank you, Madam Chair, for holding this 
hearing. This is a very important topic. From the very 
beginning, I, like you and others, underscored the need to 
reach out to and involve small business, and there is a need 
still to do that in at least two different ways: first of all, 
to harness technological solutions and innovative ideas out 
there that are not being implemented now; and, secondly, to 
involve local Louisiana small business in the cleanup effort as 
a way of mitigating the economic hit they are clearly taking. I 
talked to BP about this early on, and I talked to the Federal 
agencies and the Coast Guard about this early on.
    Unfortunately, I think that has largely fallen on deaf 
ears. I can tell you from personal experience, when we direct 
folks to the supposedly high-level contacts we were given or 
even when we used those supposedly high-level contacts, 
including me personally sending something from my BlackBerry--
which I have not done often but on a few select occasions--it 
seems to go into a black hole. We get little more usually than 
an automated response and no significant follow-up. So that is 
really disappointing.
    In closing, let me say, Madam Chair, I am also concerned, 
as I know you are, by the enormous hit small business is facing 
by the drilling moratorium. That, if it holds, will cost us 
more jobs than the oil spill itself. Even in shallow water, 
where the Administration is saying there is no moratorium, I 
can tell you from talking to small business affected, there is 
a de facto moratorium right now because the Administration is 
not prepared to take new permit applications under their new 
rules yet. Until they clarify that and until they do, there is 
a de facto moratorium in shallow water which is costing 
additional jobs.
    Thank you very much, Madam Chair. Unfortunately, I cannot 
stay, but I will follow up with these witnesses and these 
issues.
    Chair Landrieu. Thank you, Senator Vitter.
    Senator Shaheen.

 OPENING STATEMENT OF HON. JEANNE SHAHEEN, A U.S. SENATOR FROM 
                         NEW HAMPSHIRE

    Senator Shaheen. Thank you, Madam Chairman, for holding 
this hearing this morning. I look forward to hearing from our 
panelists about how we can make sure that we do everything 
possible to bring the best technologies and innovations that 
are happening across this country to bear on this horrible 
disaster. I have heard from small businesses and scientists in 
New Hampshire who have ideas about what we can do to clean up 
the spill. So we want to make sure that we hear from you all 
about how we can be more effective, and I will submit the 
remainder of my statement for the record. Thank you.
    [The prepared statement of Senator Shaheen follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Chair Landrieu. Thank you, Senator.
    Let me begin with our first panel. We have Rear Admiral 
Ronald Rabago, who currently serves as Assistant Commandant for 
Acquisition and Chief Acquisition Officer for the U.S. Coast 
Guard. Before he served in that position, he was a graduate of 
the academy. He has also held, obviously, a variety of 
different positions with the Coast Guard, and we are interested 
to hear your testimony this morning.
    Dr. Paul Anastas, Assistant Administrator for EPA, prior to 
your nomination, you were the Director of the Center for Green 
Chemistry and Green Engineering and the Teresa and John Heinz 
Professor in the Practice of Chemistry for Yale University. You 
have an extraordinary background in that area, and we are happy 
to have you today.
    Let us begin with you, Admiral.

 STATEMENT OF REAR ADMIRAL RONALD RABAGO, ASSISTANT COMMANDANT 
   FOR ACQUISITION & CHIEF ACQUISITION OFFICER, ACQUISITION 
                 DIRECTORATE, U.S. COAST GUARD

    Admiral Rabago. Good morning, Madam Chair and distinguished 
members of the Committee. My name is Rear Admiral Ron Rabago, 
the Coast Guard's Assistant Commandant for Acquisition, which 
includes our research and development program. I appreciate the 
opportunity to appear before you today to discuss the process 
by which the public, including small businesses, can propose 
their ideas for oil spill cleanup on the Gulf Coast.
    The Oil Pollution Act of 1990, or OPA 90, gives the Coast 
Guard broad responsibilities and authorities for oil spill 
prevention and response on U.S. navigable waters. This includes 
conducting research, in coordination with other agencies, on 
innovative oil spill-related technology. Part of my duties are 
to oversee the Coast Guard's sole Research and Development 
Center in New London, Connecticut, which through OPA 90 
receives annual funding for oil spill research. In past years, 
our research in partnership with other agencies and entities 
has focused in four areas: prevention, spill response planning, 
spill response planning, spill detection, and oil containment 
and recovery.
    This complex oil spill in the Gulf demands a whole of 
Government response. We are currently receiving thousands of 
ideas and proposals from the public, many of them being 
submitted by small businesses who want to help. In order to 
best evaluate and respond to these innovative offers of 
technology assistance, the Coast Guard, at the request of the 
Federal on-scene coordinator and the National Incident 
Commander, established the Interagency Alternative Technology 
Assessment Program, or IATAP, on May 18th.
    Because of the scope and magnitude of the response 
required, we needed to speed up the pace at which potentially 
good ideas were being evaluated. We also wanted to make sure 
that all ideas were looked at in a fair and consistent way. 
Almost immediately, the IATAP began to receive proposals of all 
sorts, and we began to standardize and simplify the process.
    On the 4th of June, IATAP issued a Broad Agency 
Announcement, or BAA, on the Federal Business Opportunities 
website calling for submission of technical white papers 
describing proposed technology solutions. The BAA process 
provides a structured way to receive submissions and seeks 
proposals in five categories: oil sensing; wellhead control and 
submerged response; traditional oil spill response 
technologies; alternative oil spill response technologies; and 
oil spill damage assessment and restoration.
    The BAA process is open to all sources, and the Coast Guard 
welcomes and recognizes the value of novel, highly innovative 
solutions from small businesses, individuals, and other non-
traditional sources, such as nonprofits and academic 
institutions. Our R&D center is also processing submissions 
received via phone and e-mail prior to the stand-up of the BAA 
process.
    With this structured process, once an idea is received, the 
offeror is sent an immediate receipt of acknowledgment and a 
tracking number. Our R&D center performs initial triage to 
determine what category the idea falls into. These categories 
are: not applicable for this particular event; meriting further 
evaluation to determine its viability; or showing immediate and 
exceptional promise.
    If an idea has obvious and potentially immediate benefit, 
it is forwarded, along with the evaluation team's 
recommendation, to the Federal on-scene coordinator who, based 
on operational need, will determine whether to procure and use 
the technology. Ideas that appear to have benefit but cannot be 
verified through an initial review process must undergo more 
detailed evaluation, which can be led by any one of our 
Government partners under the IATAP as appropriate for the 
proposed technology. Our partners include the EPA, NOAA, Army 
Corps of Engineers, Department of Agriculture, Fish and 
Wildlife Service, and the Minerals Management Service. For 
example, a white paper on new dispersant technology would be 
best evaluated by experts at EPA.
    It is important to note that the BAA is not a competition. 
Each submission is evaluated on its own scientific and 
technical merits, potential efficacy, and deployability. The 
timelines associated with the more detailed second-level 
evaluation will depend on the complexity of the idea, but the 
IATAP is working to process all ideas as rapidly as possible.
    As of late yesterday, we had received nearly 1,300 
submissions from the BAA process. Additionally, we received 620 
submissions prior to the issuance of the BAA. Already, 628 
submissions from before and after the BAA have gone through 
screening and are under evaluation; 114 are being screened as I 
speak. The remainder has just entered the screening process. 
One proposal for skimmer technology has already been forwarded 
to the Federal on-scene coordinator for potential use, and five 
additional potential solutions will be forwarded shortly.
    This oil spill requires the largest environmental disaster 
response in our history, and we need good ideas from all 
sources to fight the battle. The Coast Guard understands the 
value of the Nation's small businesses. Notably, in fiscal year 
2009, we awarded 46 percent, or $1.1 billion, of our total 
contracting dollars to small businesses. We know that small 
businesses are in many ways the engines of innovation. The BAA 
methodology we are using is a well defined, consistent, fair, 
and Government-managed process to solicit, screen, and evaluate 
all spill technologies. All proposals are thoroughly but 
expeditiously evaluated to ensure that the technology can 
contribute to the effort.
    Thank you for the opportunity to testify today. I look 
forward to answering any questions and ask that my full written 
statement be submitted for the record.
    Chair Landrieu. Without objection.
    [The prepared statement of Admiral Rabago follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Chair Landrieu. Doctor.

  STATEMENT OF PAUL ANASTAS, PH.D., ASSISTANT ADMINISTRATOR, 
    OFFICE OF RESEARCH AND DEVELOPMENT, U.S. ENVIRONMENTAL 
                       PROTECTION AGENCY

    Dr. Anastas. Good morning, Chairman Landrieu, Ranking 
Member Snowe. Thank you for the opportunity this morning to 
appear before you. I am Paul Anastas, the Assistant 
Administrator for the Office of Research and Development at the 
U.S. Environmental Protection Agency. I appreciate this 
opportunity to testify about EPA's role in encouraging and 
engaging small business innovation for the Gulf Coast oil spill 
response.
    As all of you know very well, the ongoing release of oil in 
the Gulf of Mexico is a continuing tragedy. The loss of human 
lives and livelihoods and the unprecedented damage to the Gulf 
region have made this environmental disaster one of the gravest 
in U.S. history. I am deeply humbled by these events and, like 
you, am committed to helping and addressing the increasing 
number of challenges that are left in the wake of these events.
    The scope of EPA's response to the BP oil spill is wide. In 
coordination with Federal, State, and local partners, EPA has 
mobilized its breadth of resources and expertise in response to 
the emergency. We have engaged the Emergency Operations Center 
in EPA headquarters and continue to provide support for a wide 
range of issues, including air and water monitoring, data 
interpretation, and much more. But we are here today to focus 
specifically on efforts to engage the small business community 
in developing innovative technologies and ideas that may be 
applied to this disaster.
    From the earliest days of this event, EPA recognized that 
good ideas are not exclusively tied to Federal agencies or 
large corporations; that the public, including the small 
business community, is an invaluable resource for creativity 
and innovations that must be tapped.
    Within days of the oil rig collapse, EPA developed and 
deployed a website portal, epa.gov/bpspill/techsolution, for 
the submission and rapid review of innovative and 
environmentally safe technological solutions that could be 
applied to the spill. Ideas poured in by the hundreds. Today we 
have received over 2,100 submissions spanning a range of 
categories from surface water containment to cleanup to air 
monitoring and detection to landfall cleanup and wildlife 
protection.
    The technological solution site is an important complement 
to the Administration's oil spill response web page, 
DeepwaterHorizonsreponse.com, and that website has already 
received tens of thousands of suggestions across the spectrum 
of topics.
    EPA's review process begins with putting submissions into 
technology categories. Then EPA technical experts carefully 
evaluate each submission and transmit them to relevant partners 
for further evaluation, testing, and potential deployment. 
Solutions relevant to stanching the flow of oil at the 
wellhead, for example, are forwarded to the Deepwater Horizon 
Unified Command and BP. Those relevant to surface cleanup are 
certainly sent to the Coast Guard, and those regarding 
dispersants are processed by our National Contingency Plan 
team. Our process is similar to that followed by the other 
Federal agencies.
    In the interest of more efficient use of Federal resources, 
the U.S. Coast Guard Research and Development Center, as you 
just heard, has established the IATAP process which was stood 
up on June 4th. EPA is now working closely collaborating with 
the IATAP partner agencies to channel ideas through a single 
streamlined process that my colleague, Admiral Rabago, has 
elaborated on further.
    It is important to recognize that our 2,100 submissions to 
date represent a broad cross section of the American public. We 
have reviewed ideas from self-identified entrepreneurs, 
homemakers, scientists, engineers, small and large businesses, 
and students--all of whom share one common element: they have 
been compelled to action on a deeply human level. So in 
addition to the importance of our submission website as a 
mechanism for sharing technological solutions, I want to 
emphasize that it also serves as a venue for people to engage, 
contribute, and be heard. The passion that is woven in 
throughout the submissions should not be discounted. Whether it 
is the potato farmer who suggested harvesting equipment to 
clean up tar balls on the beach or the automobile mechanic who 
proposed using a green cleaning solution to wash oil from 
wildlife, each submitter has conveyed a profound desire to use 
their skills and to save the national treasure that is the Gulf 
Coast. Our website and now the IATAP mechanism gives these 
citizens a voice and an opportunity to respond to the tragedy 
that has affected us all.
    At this time I welcome any questions you may have.
    [The prepared statement of Dr. Anastas follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Chair Landrieu. Thank you, and we have many questions, let 
me assure you. We will go through a first round of questioning. 
I would like to acknowledge Senator Hagan who has joined us, 
and we really appreciate her interest and support.
    Let me begin with you, Admiral, because there seems to be 
some confusion about the numbers of submittals, and I want to 
ask if you could verify for the record today. You mentioned in 
your testimony that the Government has received 1,300 
submissions; 70 have completed the initial screening process. 
To your knowledge, are those numbers accurate? And how many 
have actually been deployed, any of the new technologies 
deployed to date?
    Admiral Rabago. Yes, ma'am. We have received nearly 1,300 
through the BAA process, which was initiated on June 4th. But 
prior to that, we received over 600 that came in via e-mail and 
by telephone, and those are also being processed.
    Chair Landrieu. So you have a total of 1,900.
    Admiral Rabago. Approximately 1,900, yes, ma'am. And of 
those, we have already processed, initial screening--over 600 
of those have been looked at, 114 are currently being screened, 
and those that have already been screened into the evaluation 
process are being looked at either by the Coast Guard or our 
interagency partners.
    Chair Landrieu. Okay, because it is very important. Your 
testimony indicated some different numbers, and it is very 
important to get these numbers, you know, a snapshot for today, 
for this hearing. Can you confirm how many proposals BP has 
received? We understand it is 35,000. Is that your 
understanding?
    Admiral Rabago. I looked at their website myself yesterday. 
I saw that they had over 94,000 items in their website, but 
they are not all proposals. They are comments, they are a 
variety of things, which makes it part of the difficulty for 
them to have gone through and looked at it.
    There are items in there that are submitted. They look like 
they are from businesses. I was able to only look through a few 
of them. It is a difficult process to get into the website, but 
we do have full access, and I have asked my team to go through 
what they see there and make sure that the submissions that we 
have within our BAA process match or that those people who have 
submitted things prior, we get them into our process.
    Chair Landrieu. Now, you just testified--I thought I heard 
you say that you have full access to the BP submissions.
    Admiral Rabago. Correct. We can see their website, and I 
did look at it myself yesterday.
    Chair Landrieu. And you can get detailed information from 
BP whenever you want it about the status of their review 
process?
    Admiral Rabago. There are some status reports on it, but 
there is just a lot of information. They are not necessarily 
all submittals. Some are just ideas, some are just comments. It 
is a lot of information, and we are going to start to go look 
through it and see which ones are actually proposals that could 
be acted upon.
    Chair Landrieu. Okay. Of all these thousands of proposals 
that have been submitted to either the Government or to BP, 
have any today been deployed?
    Admiral Rabago. We have not from the BAA process actually 
deployed, although I have submitted an idea to the Federal on-
scene coordinator for their consideration. Their operational 
commander has to make the decision of how to use the technology 
in the fight, specifically geographically where, and then how 
to employ it with the forces that they have under their 
control.
    Chair Landrieu. So you are testifying that you have 
submitted one proposal to basically the front line to date.
    Admiral Rabago. Correct.
    Chair Landrieu. And that you are making your best efforts 
to try to speed up that process.
    Admiral Rabago. Yes, ma'am. We want to speed it up.
    We want to get those ideas there.
    Chair Landrieu. When companies submit these ideas, you said 
that they have six different areas that they are evaluated by. 
There are three different agencies. EPA does dispersants, 
Incident Commander does wellhead capping, and the Coast Guard 
does the cleanup piece. Are businesses told within a reasonable 
amount of time, a few days, what category they are being 
evaluated in? Explain a little bit about that process for those 
that would be interested.
    Admiral Rabago. As soon as they submit it, it is followed 
up. They are given a tracking number and an acknowledgment that 
their idea has been received. The idea comes in the form of a 
filled-out form along with an attached three-page white paper 
that describes their proposal.
    That product then is evaluated by our Research and 
Development Center. It is screened. It is an initial screening 
to categorize it, to put it in one of the categories, and then 
to decide who best to evaluate it. In some cases it is the 
Coast Guard. In some cases it is EPA. In other cases it may be 
NOAA that is evaluating it. And that is done through the 
interagency process, the IATAP process, and they are tracked. 
There are a number of people working not only within the Coast 
Guard but in the rest of the interagency to process these 
ideas, evaluate them, and determine whether they can be used in 
the particular--down in the Gulf. And those ideas that have 
merit will be given to the Federal on-scene coordinator.
    Chair Landrieu. Do you know how many responses the Coast 
Guard can handle in a given day, either in-house with your 
reviewers or contractors that you have employed?
    Admiral Rabago. I do not have a specific number, but it is 
not just what the Coast Guard can handle, because half of my 
Research and Development Center is currently working on this 
particular issue and processing the ideas. But it is not just 
the Research and Development Center because they get to reach 
back into academia, into federally funded research and 
development centers, and a variety of other sources, including 
our own Department of Science and Technology. There are a 
number of sources they can reach into to ask for help for 
evaluation. Then, of course, there is the interagency so that 
if an idea can be evaluated by multiple agencies, we will do 
that as well. The whole goal is to quickly get a response back 
to the offeror that we have received their idea, next to tell 
them that their idea is under consideration. We may have 
interactions with them because oftentimes they may not have 
enough information and we will have questions. We have begun 
that process as part of the evaluation, and then we will act on 
it once the technology has been evaluated and it looks to be 
useful in the Gulf. The goal is to get the technology into the 
Gulf.
    Chair Landrieu. Okay. You also may want to, just as a 
suggestion, maybe give a special express line to proposals that 
come in from elected officials that are on the front line down 
in the Gulf, whether it is parish presidents or the Governors 
along the Gulf Coast. You know, they are there every day. They 
are hearing, they are listening--not that those, you know, 
should be expedited without the proper review, but you may want 
to just consider opening up an avenue for some of these elected 
officials who are down there and have been every day for the 58 
days.
    Does the Coast Guard have the ability to issue a contract 
immediately if a silver bullet white paper comes across your 
desk? I mean, if one can be identified, do you have a process 
in place to expedite it given the urgency of the situation?
    Admiral Rabago. Yes, we do. We have the ability to use 
funds to do some research at the level of the evaluation 
process, and then the Federal on-scene commander has access to 
funds, and obviously the responsible party has funds that can 
be applied to acquiring the technology and deploying it.
    Chair Landrieu. All right. One question for you, Doctor, 
and then I will turn it over to Senator Snowe. It is my 
understanding that for certain types of technology such as 
dispersants, the EPA's approval is almost essential for their 
deployment. There has been a lot of controversy about these 
dispersants. So would you give just a minute to review your 
testimony about how quickly you all can decide whether these 
are safe or not? Are you, under current EPA rules, allowed to 
test these dispersants in the open ocean? I understand that 
that is not even possible now because you cannot--and if I am 
wrong, please correct me--put oil into the ocean for the 
testing, you have to do that in a laboratory setting, which may 
not reflect the magnitude of what we are dealing with. Could 
you comment on that, please?
    Dr. Anastas. Yes. The current mechanism to get dispersants 
approved is outlined under subpart (j) of the statute, which 
requires a certain number of tests be conducted. One is for 
efficacy, to make sure that the dispersant functions. The other 
is to have toxicity testing for aquatic toxicity--this is 
specifically on mysid shrimp and silverside fish--to assure 
acute toxicity levels are appropriate. That is required to be 
submitted to the Agency before approval and inclusion on the 
National Contingency Plan list of dispersants.
    Further testing to be conducted by the Agency, you are 
absolutely right, Senator, that currently the testing for 
dispersants is not done in the open ocean. It is done in a 
laboratory setting.
    Chair Landrieu. Well, I think it is important for this 
record to reflect that Canada and Norway conduct controlled oil 
spills to test different cleanup technologies. In the past, MMS 
has participated in one of the Norwegian tests. The United 
States, though, on the other hand, under current law does not 
conduct controlled spills, and it is not legal at the current 
time. So I think we have got to really reevaluate some of these 
processes if we are going to try to lead the world in deepwater 
ocean technology. But we will continue that line of 
questioning. Let me turn it over to Senator Snowe.
    Senator Snowe. Thank you, Chair Landrieu. Just to follow up 
on that question, Dr. Anastas, exactly what did EPA tell BP 
with the use of these dispersants, especially the subsea 
applications?
    Dr. Anastas. The subsea application of the dispersants was 
something that was reviewed and approved by the EPA in a very 
limited capacity. So it did give approval for small amounts to 
proceed. Part of the reason for that is, one, in the initial 
testing, the several initial tests, it had shown to be 
effective in dispersing the oil at the subsea. And, secondly, 
it is effective at a far lower level, far lower quantity than 
surface application. And so the Agency did give approval for 
initial use of subsea application of the dispersants.
    Senator Snowe. And what about surface dispersants. What did 
EPA tell BP?
    Dr. Anastas. The Agency is not required to give approval 
for that because the current blends allow for application of 
approved dispersants in this situation on the surface.
    Senator Snowe. So EPA did not send a letter to BP to stop 
using surface dispersants?
    Dr. Anastas. Subsequent to the initial application on the 
surface, the EPA did seek to minimize the use of dispersants, 
minimize the quantity of dispersants being applied on the 
surface and sub-surface.
    Senator Snowe. As you know, there is considerable concern 
among local officials in terms of using these dispersants. Are 
you aware of that?
    Dr. Anastas. I am aware that there is concern that many 
have expressed about the quantity of dispersants used, which is 
why the Administrator made it clear that she wants to minimize 
the use of dispersants to the most effective level.
    Senator Snowe. If we have not tested them, why would we be 
using them in the subsea below the surface, and at these depths 
and in these quantities? Why would we be doing that?
    Dr. Anastas. The EPA has received testing data on all 
substances on the National Contingency Plan approved list. We 
do have testing data both on the efficacy and on the toxicity 
of all dispersants, including the dispersants that we----
    Senator Snowe. In terms of these quantities, 15,000 gallons 
a day?
    Dr. Anastas. This is absolutely unprecedented in terms of 
the quantity of oil being released into the Gulf and in terms 
of the quantity that is being released----
    Senator Snowe. I know. I am speaking of the 15,000 gallons, 
though. We have never approved that.
    Dr. Anastas. These dispersants have never been used at the 
subsea.
    Senator Snowe. But there has been no testing at the subsea 
applications. Is that correct? I would just like to know.
    Dr. Anastas. Correct. The only testing that was done is in 
preparation for--in this event.
    Senator Snowe. Well, as I mentioned earlier, there is 
considerable concern about the use of these dispersants and 
with local officials saying, ``Why don't we stop spraying 
dispersants? It has literally sunk to the bottom, coating the 
bay.'' I want somebody to tell me why these dispersants are not 
doing what they said they are going to do, and I want somebody 
to tell me why we do not stop spraying dispersants? These local 
officials obviously are very concerned.
    Dr. Anastas. I guess I would like to address that. I think 
that anytime we are putting formulations and substances into 
the ocean, we have to do that very thoughtfully. There are 
toxic chemicals that are going into the environment, and they 
are constituents of the oil. We are looking at benzene, 
toluene, xylene, ethyl benzene that are going in in tremendous 
quantities. The dispersants that are being used are to make 
those constituents and the hydrocarbons more digestible to the 
microbes and to make them be able to degrade far faster. And 
all of the data suggests that the oil will degrade far faster 
with the application of these dispersants.
    So while I think we have to do it with utmost concern and 
constant monitoring and sampling, I do think that that was the 
underlying reason.
    Senator Snowe. In the process, Admiral Rabago, and as well 
for you, Dr. Anastas, I am still not understanding why we have 
two parallel procedures between the Federal Government and BP. 
There is an imperative here that it is in the national public 
interest given the catastrophe at hand. So wouldn't it be 
crucial for the Government to amass the resources to deploy all 
of the equipment and the personnel necessary to contain the 
spread of this oil and to mitigate and remediate this spill? My 
concern is it seems to be a very bureaucratic process right 
now. Not to say to expedite and to make hasty decisions but, 
rather, I am not clear what good ideas that are going to BP 
come to your attention. And why is it that BP would be 
dictating ultimately what would be a good idea. Their interests 
are not necessarily in our public interest. Obviously, we have 
a concern about making sure that we can do everything we can to 
develop an approach that is going to move very quickly to 
deploy the resources and to contain the spread and dispersal of 
this oil so it does not contaminate the marshes and the 
wetlands and reach into the shores in Alabama now and 
potentially Florida.
    So this is the question as to why we developed two 
procedures, because I do not understand how these decisions 
intersect. Why aren't you the one in charge, why don't we have 
one individual in charge to oversee all of the ideas that are 
submitted to BP as well as to the Government so we have a 
uniform, synchronized process that is moving in tandem so that 
we, the United States Government on behalf of the American 
people, make the decisions, dictate the direction, make the 
approval of technologies and remediation efforts that are 
solely in our public interest?
    Admiral Rabago. That is our goal, ma'am, to do exactly 
that. We want one process, and that is why we built the system 
that we have with the Broad Agency Announcement to be able to 
pull those in. We also have to look back at what occurred 
previous to that, which is what I am doing, taking a look at 
the ideas that were submitted from all places and make sure 
that they get put in and that we get the right kind of 
technical information to be able to evaluate them, and if they 
have merit, get them into the fight as quickly as possible.
    Senator Snowe. Well, let me understand this. If there is an 
idea that has been submitted to BP and it is not submitted to 
the Government, to you, and they reject that idea for whatever 
reasons, it may well be a good idea. Maybe it is too costly. 
Maybe they have not given it the attention it deserves. How 
would that come to your attention?
    Admiral Rabago. We are in the process of taking a look at 
all the information that was submitted to BP and make sure that 
those ideas that have been submitted, that are proposals for 
solutions for the situation in the Gulf are processed and we 
talk to those individuals and get them to submit the 
information required for us to conduct a thorough evaluation of 
them.
    Senator Snowe. So all the ideas submitted to BP are also 
reviewed, all of the ones that are submitted to BP are reviewed 
by you?
    Admiral Rabago. Not yet. We just have gotten full access to 
their database. We have begun to look at the information that 
is in there. Not all of the information, those 94,000 items, 
are proposals. We have to kind of go through that information, 
find the things that are proposals, and begin to do things with 
that. We have begun that process.
    Senator Snowe. How many people are assigned to you?
    Admiral Rabago. In dealing with this particular issue, in 
terms of my Research and Development Center, I have 86 people 
in New London, Connecticut; another 15 in Washington, D.C., 
that are doing that. And half of those people right now are 
involved directly in the review of these ideas. But, again, 
they are not just--they are not the only ones doing that. They 
are reaching back into academia, federally funded research and 
development centers, and a variety of other sources, including 
working with our interagency partners, to get these ideas 
processed as quickly as possible.
    Senator Snowe. It hardly sounds a sufficient amount of 
personnel for the task at hand.
    Admiral Rabago. That is why we want to reach back in and 
access the whole of academia and the other research and 
development centers and a variety of other sources. There are a 
lot of people that we are going to bring----
    Senator Snowe. Well, all I can say is there is a time 
factor involved here.
    Admiral Rabago. Yes, ma'am.
    Senator Snowe. I mean, that is the point. And I think that 
is the frustration that people are facing and seeing and 
witnessing and what is happening with the dispersal of the oil. 
We should have pre-positioned--as the Coast Guard does 
remarkably and did in Hurricane Katrina, as many assets as 
possible for the worst-case scenario. And once it was underway, 
all of the assets and all of the boomers and skimmers and other 
equipment and the personnel should have been deployed to the 
coastlines all through the Gulf to make sure that we could do 
everything to contain the spread of oil before it reached the 
shores.
    Admiral Rabago. Yes, ma'am.
    Chair Landrieu. Thank you, Senator Snowe.
    Senator Shaheen.
    Senator Shaheen. Thank you, Madam Chairman.
    Last week, Secretary Chu announced that data about the oil 
spill is available now online through the Department of 
Energy's website, and it includes schematics, pressure tests, 
diagnostic results, that sort of thing. And this is obviously 
critical information for anybody who is working on innovative 
technologies that might help address the spill.
    I continue to hear, however, from independent scientists, 
from small businesses, from engineers about the lack of 
information and transparency about what is happening in the 
Gulf.
    Admiral, you have mentioned your website that is available 
for small business. Dr. Anastas, you have mentioned the website 
through EPA. How are all of these sites being coordinated? Does 
the Unified Command have plans to make more information 
available for those people--both for the public and for those 
people who might be working on potential technologies to 
address the oil spill cleanup? How can we make sure there is as 
much information available as possible? And to your knowledge, 
is there critical information that is being withheld for any 
reason? So I have given you about four questions, and, Admiral, 
I think maybe if you would start.
    Admiral Rabago. Yes, ma'am. As far as providing access to 
information, I know that the information group that is 
associated with the National Incident Command does put out a 
good deal of information. We also have received as part of our 
BAA process not only proposals but questions about how either 
companies or individuals can help, and we respond to those 
queries as well.
    There is a tremendous amount of information flow. Our 
website is one place to do that. There are multiple sources of 
information. Our website that we have through the Federal 
Business Opportunities website is a gateway for individuals to 
submit those ideas that they believe will bring innovation and 
solutions to the problem in the Gulf.
    So that is our methodology for getting that information. We 
evaluate it and we answer back, which was not occurring before. 
We do answer back everybody that submits something, and we are 
evaluating it and tracking it. So we are working to make the 
information flow more transparent all the time and more 
responsive to those that submit suggestions and ideas.
    Senator Shaheen. And is there any information, to your 
knowledge, that is being withheld from the public about what is 
happening?
    Admiral Rabago. No, ma'am. I am not aware of any at all.
    Senator Shaheen. Doctor.
    Dr. Anastas. Transparency has been at the center of our 
data generation/collection efforts. One of the things that the 
agency has done from early on is strive to get all of the data 
that we are collecting, which is considerable, other agencies 
are generating significant data as well, on our sampling data, 
our air data, our monitoring data, in as rapid a fashion as we 
receive it, and it is--we receive it. We make sure that it is 
correct. It goes immediately up on our main website for 
everybody to see. So this is something that is extremely 
important, and I agree with you.
    Senator Shaheen. Thank you. Chair Landrieu asked a question 
that I am not sure--that if it got an answer, I missed it. That 
is, of the suggestions and ideas that have been reviewed by the 
various entities involved, are there any that are actually 
being put to use right now in response to the spill? And can 
you explain very briefly what those are?
    Admiral Rabago. Recently, we did submit one to the Federal 
on-scene coordinator. It is not yet being used. I know that 
some of the ideas were submitted earlier to the responsible 
party, and they did employ those with the oversight of the 
Federal on-scene coordinator. And there are some new 
technologies that have been deployed into the Gulf.
    For the Coast Guard and for the interagency process that we 
have started, we have not yet brought a technology and had it 
actually be applied, but that is coming soon. We have a number 
of ideas that are working their way through, and some of them 
are very good ideas, and we expect to get them to the Federal 
on-scene coordinator soon.
    Senator Shaheen. Dr. Anastas, is there anything that the 
EPA has heard or seen that has been put to use?
    Dr. Anastas. The way that the Agency works is by bringing 
in these innovative ideas, having a team that taps into all of 
the broad expertise in the agency, identifies those which have 
the potential to be effective and environmentally safe and 
ensure that they are forwarded to the proper people responsible 
for deployment and implementation. So it is a screening and 
evaluation process to make sure it gets into the right hands 
for decisionmaking.
    Senator Shaheen. So you might not know if they actually got 
put to use? Is that what you are saying?
    Dr. Anastas. That is correct.
    Senator Shaheen. Thank you.
    Chair Landrieu. Thank you, Senator.
    If the Senators do not mind, Senator Levin has joined us. 
He is actually chairing an Armed Services hearing right now, 
and so he slipped out momentarily to come over, and I would 
like to recognize him now. And I want to say before he speaks, 
as the leader of the defense committee, the Armed Services 
Committee, which I had the pleasure to serve on for 4 years, he 
has been an outstanding leader on bringing new technology to 
the battlefield, actually listening to the soldiers on the 
battlefield. I think his experience and his expertise in this 
area, as a member of this Committee, can help us because in 
many ways this is a battlefield out in the Gulf, and I thank 
you for attending the hearing and will recognize you now.
    Senator Levin. Madam Chairman, thank you so much for that. 
Thank you for your extraordinary and determined, tenacious 
leadership on this issue.
    I have just a couple questions before I get to a technology 
question, which I will get to. And if this question has been 
asked and answered, forgive me. I am trying to get a feel as to 
how much equipment of various types--and I will go through it--
is needed and how much is there. Okay?
    Admiral, let me ask you, about how much boom do we have 
down there?
    Admiral Rabago. We have two kinds of boom that we are 
tracking: the mechanical boom that basically provides a 
boundary, and we have over 2 million feet of that boom 
deployed. We also have sorbent boom which floats on the water 
and absorbs oil, and there is over 3 million feet of that boom 
deployed. They are procuring more of it.
    Senator Levin. Well, that is what I want to find out. How 
much of that do you need? Is that half of what we need? A third 
of what we need? What is it?
    Admiral Rabago. I will have to get back the exact answer, 
but I know that we are going to continue to need more. 
Especially if the weather turns there and there are losses in 
the wear and tear of existing boom, we are going to need to 
replace it.
    Senator Levin. Do we have half of what we need?
    Admiral Rabago. I will have to get back exactly. I do not 
have that information.
    Senator Levin. How about skimmers? Do we have half of the 
skimmers we need?
    Admiral Rabago. We need more skimmers.
    Senator Levin. Do we have half of what we need?
    Admiral Rabago. I will have to get back to you on the 
specific figure, but we do need more.
    Senator Levin. How many barges do we need? Do we have half 
the barges we need?
    Admiral Rabago. We need more barges to be able to hold the 
oil.
    Senator Levin. And you do not know what percentage we have 
of what we need.
    Admiral Rabago. I know we have over 8,000 vessels----
    Senator Levin. No, but in terms of the percentage of what 
we need, do you have a figure on that for barges?
    Admiral Rabago. I will get back to you for the record on 
that, sir.
    Senator Levin. Okay. Same thing with tankers, same thing 
with dispersants, same thing with trainers.
    Someone like me is frustrated. I can just try to imagine 
what folks who live there are going through--I try to imagine, 
just to get a feel as to what resources are there compared to 
what the need is, and not just as a human being impacted. I 
happen to be familiar with a company in my home state which is 
a major player in the cleanup business. It is called Marine 
Pollution Control. They are one of the biggest--they happen, 
technically, to be a small business, by the way. But they are 
still one of the major players in the world in cleanup. They 
have made dozens and dozens and dozens, over a hundred phone 
calls. They go all over the world to clean up. They were part 
of the Exxon Valdez cleanup, and I think they have--had half of 
the boom which they have offered has been used. And, by the 
way, I am not trying to tout this company. If you have 
everything you need down there, great. Okay? I am not here 
trying to promote a Michigan company, even though they are a 
fabulous company. That is not my purpose. I am here to try to 
understand why, if you have less than you need, isn't one of 
the major companies--why aren't all of the companies responded 
to?
    Now, they have got 14 tankers, this company, 14 tankers, 
each of which can hold thousands of gallons. None have been 
called. Two barges, neither have been called. Four skimmers, 
none being called upon. They have got still 5,000 feet of boom. 
I think half of the boom that they have has been called for and 
that is it. But all the other capabilities that they have are 
just waiting to be called upon.
    I do not get it, and this is something I know personally 
because of the presence of this company. It happens to be in my 
hometown, not just in my home state. So I just would urge you--
okay? There may be dozens of companies like them. There may be 
hundreds of companies like them. For them not to feel like, 
hey, to get responses to the hundreds of inquiries that they 
literally have made and to get three responses and to have half 
of one of the things they can provide called upon and that is 
it is totally unacceptable to me.
    They also have--and here is a technology, and I know this 
is the focus of the hearing, and forgive me if I have gone 
astray, but it is something I have been wanting to ask for a 
long time. They have a technology. It is a submersible 
submarine. It is still in development, but it has been used 
effectively under some circumstances. It has been offered. Just 
let them know, yes or no. They need an answer. It can go down 
200 feet. It cannot get to the 5,000-foot level, but what it 
can do probably is clean up the bottom up to a 200-foot level, 
which is going to be very important. Okay?
    My experience with the hometown company tells me something 
is wrong here in terms of coordination, and it is very 
discouraging to me personally, and I would appreciate the 
answers to those questions, Admiral.
    I thank the Chairman for letting me intervene here, perhaps 
out of turn.
    Chair Landrieu. No, thank you, Senator, and you are always 
welcome, and I know that you have got to get back in just a 
moment to the Armed Services Committee.
    But I do think that the Senator has expressed a general 
frustration on behalf of businesses across the country that 
feel like they have very relevant technologies and they want 
just an opportunity to showcase what they can do, particularly 
when they see night after night, day after day, the situation 
seeming to get worse as opposed to better. So I know that you 
all are scrambling. We ask you just to scramble a little 
harder, organize a little better.
    I would like to recognize Senator Cardin. We are in our 
first line of questioning, Senator, if you have any questions 
before we go to our second panel, or brief comments.
    Thank you, Senator Levin.
    Senator Cardin. Senator Landrieu, Chairman Landrieu, thank 
you very much, and let me just--and to Senator Snowe, we very 
much appreciate this hearing.
    I was down in the Gulf, as you know, last Friday and had a 
chance to be with Admiral Watson, who--first of all, let me 
say, I know you all are working 24/7. I know that you are 
working as hard as you can. You are as frustrated as everyone 
is as to the unprecedented spill that is taking place. The fact 
that you have oil on the surface but then it disperses and 
shows up on our shorelines in a very challenging way.
    We had a chance to see the operations by a lot of small 
companies, putting out booms and doing the skimming and doing 
everything they could to protect the Louisiana coast. But, 
unfortunately, we also saw the results of oil on the shore, on 
sensitive marshes and islands, and saw the inability to hold 
accountable the contractors to maintain the booms that were 
critically important to protect the sensitive shorelines.
    I again want to just point out that Admiral Watson I think 
took action as a result of that, and that is exactly what we 
were intending, and I know that corrective measures have been 
put in place, and that is what we need.
    I guess my point is that you are in charge. This is the 
Government's responsibility to respond to the spill. Now, the 
cost is going to be paid by BP and its affiliates. We know 
that. But the chain of command is ours, and, therefore, it is 
up to us to engage the talent of this nation and, if necessary, 
internationally to figure out how we can minimize the damage 
being caused to the Gulf and other regions.
    That requires us to use the ingenuity of small companies. 
That is where the talent is in this country to find ways to 
innovate and take care of new challenges. We find that we get 
more innovation, more of our new discoveries come from the 
small companies of this nation. I guess my plea to you is that 
we have to be much more effective in energizing that asset that 
this nation has.
    I have talked to some of the small business owners down in 
the Gulf, I have talked to small business owners around the 
nation who have said, look, you know, we would like to get 
involved. So I do underscore the points that the members of 
this Committee have made that it is not BP's responsibility, it 
is our responsibility to respond to this challenge. BP is going 
to pay the cost. We know that. But I think it is incumbent upon 
us to figure out how we can energize the talent of this nation 
to confront this challenge, to minimize the damage, and we know 
the damage is going to be severe, but to minimize it the best 
that we can. And every day that we lose, the devastation is 
going to be much worse. And every part of this nation is going 
to feel it. I know my own area in Maryland, we have a lot of 
migratory wildlife that visits the Gulf of Mexico. We do not 
know if they will be returning to our area. So we all have a 
stake in this.
    Thank you, madam Chair.
    Chair Landrieu. Thank you.
    Yes, Senator Snowe wants one final question. Then we are 
going to move to our second panel.
    Senator Snowe. For clarification, Dr. Anastas, on this 
whole issue of Corexit, so that we understand, on May 26th EPA 
sent a letter, did they not, issuing a directive to BP to stop 
using a surface dispersant, the Corexit, and limit the subsea 
to 15,000 gallons? Is that correct? And since then, as I 
understand it, 185,000 gallons of surface dispersant has been 
applied on 14 separate days, and on 4 days more than 15,000 
gallons have been applied subsea. So why hasn't this practice 
stopped?
    Dr. Anastas. The Administrator has communicated with BP to 
minimize the use of dispersants wherever possible and to seek 
approval when the amount of dispersant goes above a certain 
level.
    Senator Snowe. Well, that is on the subsea, but not for 
surface. I am not understanding the stop and the minimizing. It 
is either stopping entirely the use of it or minimizing it, and 
EPA asked for stopping it. So that is what I am not clear on, 
because there have been a number of questions raised on this 
issue.
    Dr. Anastas. The National Contingency Plan allows for 
application of approved dispersants.
    Senator Snowe. In particular, Corexit?
    Dr. Anastas. Any approved dispersant. It does not need to 
be Corexit. The Administrator did express, the Agency did 
express concerns about ensuring that the dispersant used would 
be the least toxic as possible, and what is happening in real 
time is the Agency is engaged in the science to find out if 
there are any alternative dispersants that are less toxic.
    Senator Snowe. Well, it is my understanding that EPA issued 
a directive to BP to stop using it, the surface dispersant, and 
limit the subsea. So obviously we need to get a clarification 
on this question.
    Dr. Anastas. The directive was to identify a less toxic 
dispersant or explain why it could not identify a less toxic 
dispersant. They did not identify a less toxic dispersant, and 
so EPA is engaged currently in the science of determining if 
there are any other dispersants that would have reduced 
toxicity.
    Senator Snowe. So in the meantime, BP can continue the use 
of the surface dispersant?
    Dr. Anastas. With the understanding that the use of 
dispersant will be minimized.
    Senator Snowe. Thank you.
    Chair Landrieu. Thank you, Senator Snowe, and to try to end 
this first panel on a slightly more positive note, we did 
receive an e-mail from a 12-year-old Louisiana-based 
environmental remediation service company that said for several 
weeks they were unable to get any response. They finally got 
their product submitted, and just last week, they sent this 
information to one of our PTAC contacts that they received 
verbal approval from BP accepting this technology to start 
their application today.
    So we have one company that sent a positive e-mail, but 
there are thousands still waiting, and that is what this 
hearing is about.
    So I thank you all. We have much more information to pursue 
from you. I know that you are going to stay here in the room to 
hear from the second panel at my request, so thank you and we 
will move to the second panel.
    If the second panel would come forward. Eric Smith serves 
as the Associate Director of Tulane Energy Institute. He is 
also a Clinical Finance Professor in the Freeman Business 
School at Tulane. He has extensive background in business 
development and energy and created and teaches the mandatory 
course that lead to an energy specialist certificate at Tulane. 
We are glad, Doctor, to have you here.
    Dan Parker is from Kentucky. Mr. Parker founded C.I.Agent 
Solutions. He served as President and Member of the Board of 
Directors of that company. He was successful in getting the 
C.I.Agent listed on the EPA's National Contingency Plan. We 
look forward to his testimony today.
    Heather Baird serves as Vice President of Corporate 
Communications for MicroSorb Environmental Products that I 
understand is being considered as we speak.
    Also, Dr. Carys Mitchelmore is currently an Associate 
Professor at the University of Maryland Center for 
Environmental Science, the Chesapeake Biological Laboratory. 
Dr. Mitchelmore earned her Ph.D. from the University of 
Birmingham, and she has a great deal of expertise to share with 
us on this subject.
    And, finally, we have Mr. Kevin Costner, who, along with 
his brother, in 1995 purchased Ocean Therapy Solutions, a 
company developing a oil separation machine. We are very 
pleased to have Mr. Costner with us. He has been spending a lot 
of time down in the Gulf Coast, as all of you have been focused 
on this issue, and we look forward to your testimony this 
morning.
    Let's begin with you, Mr. Smith.

 STATEMENT OF ERIC N. SMITH, ASSOCIATE DIRECTOR, TULANE ENERGY 
                  INSTITUTE, TULANE UNIVERSITY

    Mr. Smith. Thank you, Madam Chair.
    Chair Landrieu. And if you would press your ``talk'' button 
and speak right into the microphone, please.
    Mr. Smith. Thank you, Madam Chair, Ranking Member Snowe, 
and members of the Committee for inviting me to testify this 
morning on what I think has become a very significant issue.
    I would like to speak about this problem associated with 
the current spill response in the U.S. Gulf and the apparent 
inability of the company and agencies involved to provide 
timely responses to the thousands of suggestions being 
generated by concerned citizens and small businesses.
    There are two corollary problems here. One is small 
businesses typically lack the commercial recognition to gain 
attention and access to relevant Federal agencies that provide 
funding to advance improvements in prevention and response 
technologies. The second issue, the specifics, BP, the MMS, and 
the Coast Guard are practically constrained to dealing with 
known quantities when setting up supply chains to approve and 
transact business with potential suppliers. Companies or 
individuals without existing commercial relationships find it 
difficult to establish credibility in normal times. During an 
emergency it is even more difficult.
    The solution perhaps that we suggest is the establishment 
of an independent third-party team to screen proposals and to 
respond either positively or negatively to all suggestions. 
This national clearinghouse would use existing faculty at 
universities having the requisite skill sets and prior 
experience in navigating company supply chains and Federal-
State agencies and to efficiently screen suggestions, separate 
the wheat from the chaff, and provide concise information to 
relevant agencies and companies so that they can make logical 
investment and purchase decisions.
    Tulane and other universities have experience with 
screening proposals, assisting those with real potential and 
enhancing their ability to elicit contracts for Federal 
research funding. Our team at Tulane already includes experts 
in both conventional and renewable energy resources, energy 
economics, medicine, public health, environmental studies, and 
biomolecular research. Moreover, we have a reputation for 
public outreach in times of crisis as a result of our 
university-wide efforts surrounding the response to Hurricane 
Katrina.
    We also have been successful in developing research 
partnerships between Government and universities in Louisiana 
that extend beyond Tulane's boundaries through CPERC, a 
consortium of Louisiana-based schools that partner on specific 
research projects. Because Tulane is the only private 
university in the group, we have the flexibility to respond 
more quickly to emergency situations and to then bring other 
schools into the team.
    Having a good product idea is only half the battle. We all 
know that the balance of commercialization involves the 
sometimes arcane activities of establishing intellectual 
property rights, establishing overall economic and financial 
viability--in a word, writing the business plan, getting it 
submitted. Essentially we propose to establish this 
clearinghouse using existing infrastructure and communication 
links where new ideas can be screened, grants formulated, and 
new businesses incubated. Those ideas that are too early or in 
our view non-starters will still receive a thoughtful letter 
outlining the reasons for their rejection. Our overarching goal 
is to break up the logjam of proposals reaching the agencies 
participating in the spill response and to make sure the good 
ideas that are currently buried in this deluge of paper see the 
light of day in a timely manner. We believe that Tulane 
University is suited to provide that service.
    Thank you, Madam Chair.
    [The prepared statement of Mr. Smith follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Chair Landrieu. Thank you. Mr. Parker. Please pull the 
microphone as close to your mouth as possible. If you all could 
push a little bit over to give him more space.
    Mr. Parker. I am going to defer to Dan Koons, who is the 
author of the paper, and then I will take all the questions.
    Chair Landrieu. Okay.

STATEMENT OF DAN KOONS, C.I.AGENT SOLUTIONS, ACCOMPANIED BY DAN 
 PARKER, FOUND AND CHIEF EXECUTIVE OFFICER, C.I.AGENT SOLUTIONS

    Mr. Koons. Madam Chair, distinguished members, I appear 
before the Committee to testify on behalf of the thousands of 
U.S. citizens that have presented ideas and offered alternative 
technologies to assist in the ongoing spill. The alternative 
technology I am here to testify concerns the use of 
solidifiers, C.I.Agent. C.I.Agent Solutions is a small, 
Kentucky-based company. C.I.Agent is a proprietary blend of 
U.S. food-grade polymers which are non-toxic, non-corrosive, 
non-carcinogenic, non-hazardous, and they are typically used to 
manufacture food or medical devices such as IV bags, surgical 
gloves, and syringes.
    C.I.Agent polymers have been listed as a solidifier on the 
NCP Product Schedule since early 1994. The hydrocarbons, once 
solidified by C.I.Agent, are 100 percent recyclable. They can 
be used as fuel, as raw materials for asphalt, plastic, and 
rubber.
    C.I.Agent Solutions personnel have regularly attended RRT 
meetings across the Nation for the past 10 years trying to get 
the regulatory community to examine, study, and recognize the 
effectiveness of using C.I.Agent solidifiers as an alternative 
method of oil spill cleanup. Our case studies actually show 
that using solidifiers will reduce the environmental impact, 
the cost of cleanup on average of 50 to 80 percent.
    This brings me to the reason we believe that alternative 
technologies are being shut out of this current spill. The 
reason does not lie at any single entity--not with BP, not with 
the U.S. Coast Guard, not with the Federal or State agencies 
currently working on the spill. In fact, every one of these 
groups is fully engaged in following their prescribed duties as 
set forth in the National Incident Management System. The NIMS 
was created in 2003 in order to have a consistent nationwide 
template to follow in the event of a national crisis.
    We do have national response teams, regional response 
teams, area and local response teams on site, and they are all 
following their respective playbooks. However, vendors have had 
very little access or opportunity to bring technology forward. 
Vendors are not permitted to attend the national response team 
meetings. Vendors do attend, observe, and occasionally 
participate in the RRT meetings.
    The system does not encourage or promote active research of 
new technology. It simply is not a priority. New technology 
stands on the sidelines while everybody dutiful follows an 
outdated playbook.
    The following are examples of technology proffered by 
C.I.Agent Solutions over the last 40 days:
    On April 26th, BP did deploy C.I.Agents to Houma, 
Louisiana, to consult on shoreline protection.
    On the 31st, we undergone the contract on Dauphin Island to 
protect the nesting habitat on the north shore.
    On May 12th, BP made a request to use C.I.Agent at the 
wellhead. The request was assigned to an ARTES Committee, which 
is an alternative response tool evaluation system committee. We 
have yet to be asked to participate in the ARTES process as 
required under the ARTES protocols and even after a number of 
written requests to the committee, still no response.
    On the 20th of May, C.I.Agent Solutions brought in from our 
Australia group a marine engineer along with a complete 
advanced system to apply and recover solidifiers. The ARTES 
committee was provided information, PowerPoints. Still no 
response.
    The C.I.Agent Solutions' cannon is currently being used in 
Australia on oil spills, for vessel hull cleaning, and 
shoreline cleanup.
    All the agencies recognized the value of these systems but 
have yet been unable to adopt them. We brought a water-testing 
device, offered four of them free to agencies, both State and 
local. The C.L.A.M. actually monitors water levels 100 times 
greater than the present methodology. But in every case, the 
agencies told us the value of the system was really something 
they could use, but it was outside the protocols and they could 
not use it.
    The final road block prohibiting the new technology, it 
seems to me, is in the response industry itself. We have met 
with the chief executives of nearly every response agency in 
the Nation over the last 10 years trying to get them to adopt 
solidifiers as part of their response capabilities. Without 
exception, we have been told that they know our technology 
works, but they are not going to use it until someone makes 
them because they sell labor.
    In 2005, after Hurricane Katrina,, C.I.Agent----
    Chair Landrieu. Because of what? You are going to have to--
--
    Mr. Koons. I am sorry.
    Chair Landrieu. They are not going to use it because of 
what?
    Mr. Koons. They sell labor, not solutions.
    Chair Landrieu. Okay.
    Mr. Koons. In 2005, Hurricane Katrina, C.I.Agent was 
brought to Bayou Le Batre by the U.S. Coast Guard Gulf strike 
team to clean up pockets of oil. We were asked to leave by the 
response companies, being told that our methodologies was too 
quick, so we left.
    In 2008, we were brought in for the Mississippi oil spill, 
a barge and tanker spill. This was by the U.S. Coast Guard and 
the barge owner. Again, the responsible OSRO refused to use our 
technology, actually saying that they are not going to use 
solidifiers because they were making too much money.
    In 2010, we presented an option of using beach cleaning 
equipment to remove tar balls from the current spill. The 
equipment we proposed $3,400 a day, takes the place of 300 
laborers. The daily cost of laborers is $108,000 per shift.
    These are just examples of technology that have been 
brought to bear, and because the response companies and their 
involvement at the level of control within the NIMS program, 
the new technology is just simply not being applied.
    Chair Landrieu. You are going to have to wrap up, if you 
would.
    Mr. Koons. Okay. In conclusion, it is my belief that the 
consequences unfolding before us in the Gulf today are exposing 
a weakness in the National Incident Command System, and our 
National Response Strategy actually inhibits the introduction 
of new technology. The model must be changed. Technologies have 
to be given an opportunity to prove that they are efficient and 
more cost-effective than solutions now currently being 
employed.
    [The prepared statement of Mr. Koons follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Chair Landrieu. Thank you.
    Ms. Baird.

   STATEMENT OF HEATHER E. BAIRD, VICE PRESIDENT, CORPORATE 
     COMMUNICATIONS, MICROSORB ENVIRONMENTAL PRODUCTS, INC.

    Ms. Baird. Good morning. My name is Heather Baird, and I am 
the Vice President of Corporate Communications for MicroSorb 
Environmental Products of Norwell, Massachusetts. I would like 
to thank the Committee for allowing me today to testify.
    My company has a microbial technology--a powerful 
consortium of oil-eating microbes. Our microbes have been 
proven successful many times beginning when the tanker Mega 
Borg exploded in the Gulf of Mexico in 1990 off the coast of 
Texas. BP has utilized our microbes in 2001 to remediate oil 
contamination in Lake Michigan. Further, we just concluded a 
scalable lab test conducted through an independent third party 
demonstrating that within 24 hours, our microbes were able to 
destroy over 90 percent of the crude oil in a Gulf of Mexico 
water sample which was taken from the vicinity of Grand Isle, 
Louisiana, in late May 2001. Today our microbes are still not 
being utilized to save the Gulf Coast despite being highly 
efficacious, proven successful, non-toxic and non-pathogenic.
    First I would like to give you a little bit of background. 
Wherever there is a natural oil seepage from the earth, nature 
has placed oil-degrading microbes. These microbes use the oil 
as a food source, breaking it down into water, carbon dioxide, 
and fatty acids, rendering the substance harmless.
    While nature is able to clean up after itself, it takes a 
lot of time, and the problem is mankind now puts far more 
hydrocarbon pollution into the environment than nature can 
remove in the amount of time that man wants to allow. Science 
has devised ways of speeding up nature, and it is from this 
advancement that our company was born. MicroSorb Microbes are 
also known by our formulation name: The Oppenheimer Formula--
named after the pioneer in bioaugmentation, Dr. Carl 
Oppenheimer. It is a proprietary blend of nature's most 
powerful oil-eating microbes, harvested from some of the most 
extreme and oil-prone environments around the globe. With over 
100 billion microbes per gram, our formula ensures rapid 
remediation. And since our microbes are cultivated on Texas 
sweet crude oil and Gulf of Mexico seawater as their food 
source, they are ideally suited for the Deepwater Horizon 
spill. Additionally, some of our microbes are aerobic and some 
are anaerobic. This means that they can function in oxygen-rich 
areas as well as oxygen-depleted zones. These microbes work in 
open water, as well as in sensitive areas such as marshlands, 
wetlands, and beaches. Application is simple. It is highly cost 
effective, especially when compared against absorbents and 
skimmers and boom technologies. And once applied, there is no 
excavation required, no costly disposal, nothing to pick up and 
nothing left behind. Once the oil runs out, the microbes die, 
returning either to natural concentration levels or safely 
consumed by other aquatic organisms.
    Our formula is on the EPA National Contingency Product Plan 
Schedule. It was the first microbial formulation to be listed 
and has been listed since 1991. This fact, combined with the 
proven success of this product, clearly makes it a smart 
addition to this cleanup solution. However, understanding who 
makes the decision to deploy has been a significant challenge 
to our firm.
    Our President, Bill Baird, an engineer by trade, has been 
on the Gulf Coast for many weeks now, meeting with elected 
officials from Plaquemines Parish all the way to the Florida 
Keys. I have watched as he has tirelessly dispensed free advice 
to officials from city planners to Governors. And to give you 
an idea, we have met on scene with incident command in Florida; 
Mobile, Alabama; Governors' offices; the EPA; the DEP from 
Florida, Mississippi, and Louisiana; mayors' offices in four 
different states; the Coast Guard; the Department of Homeland 
Security; and city officials too numerous to count.
    I personally have been on Capitol Hill meeting with 
Senators and their teams from the affected states, and it is 
important for the Committee to understand we have put all other 
business on hold chasing down all of these stakeholders at our 
own expense. We have gained alignment from each of these 
parties, who we believed were the decisionmakers, since they 
are the true stakeholders.
    At each one of these touch points, we were told that our 
product is needed and should be deployed. However, these 
encouraging statements are quickly followed up with the caveat 
that BP holds the checkbook. Then we are inevitably told that 
we will be ``passed along'' to someone's contact or a committee 
within the BP system, and then we wait. As recently as this 
week, we were told to sign up on the Deepwater Horizon website, 
which naturally we have done. The American public believes that 
the Government is making these decisions, but our experience 
has been very different. The decisionmaker to us is clear; 
without BP sign-off, we remain sidelined. But how do you break 
through to BP amidst the millions of proposals, with a website 
being the only means of contact?
    So why is BP not employing bioaugmentation as part of its 
arsenal to clean the spill? According to EPA Publication 640/k-
93/002: ``The United States is the world leader in field 
implementation of bioremediation, an attractive alternative to 
conventional methods of cleaning up persistent hazardous wastes 
in the environment.'' This was published in 1994. This has not 
been our experience with regards to this crisis.
    We believe one reason why is the EPA states that 
bioaugmentation now is typically used as a polishing step, and 
that bioaugmentation solutions have been classified as 
alternative technologies, used only after all the oil has been 
reclaimed.
    We have found that Japan has done the most comprehensive 
scientific research to date on the use of bioaugmentation in 
open water, and I respectfully refer the Committee to the 
studies submitted as evidence detailing how bioaugmentation is 
superior to natural attenuation. Naturally, time constraints do 
not allow me to explain in detail their methodology. However, I 
can tell you that remediation with our formula has been 
superior. There are additional studies that have been done over 
the last decade that----
    Chair Landrieu. Twenty seconds, please.
    Ms. Baird. Thank you.
    So what can we conclude from this? We can conclude without 
question that the resources currently deployed for the battle 
are insufficient to the task at hand. However, the necessary 
technology does, in fact, exist. It is ready. It is scalable. 
It is highly efficacious, and it has been proven over and over 
again. I hope this Committee can help businesses like MicroSorb 
determine constructive paths forward with the appropriate 
stakeholders represented.
    Thank you for your time.
    [The prepared statement of Ms. Baird follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Chair Landrieu. Thank you, Ms. Baird, for that beautiful 
testimony. That is exactly why we are here today.
    Dr. Mitchelmore.

STATEMENT OF CARYS L. MITCHELMORE, PH.D., ASSOCIATE PROFESSOR, 
    UNIVERSITY OF MARYLAND CENTER FOR ENVIRONMENTAL SCIENCE

    Dr. Mitchelmore. Good morning, Madam Chair and members of 
the Committee. Thank you for inviting me to discuss scientific 
issues concerning dispersant use. I am Carys Mitchelmore. I am 
an aquatic toxicologist and have been researching the impact of 
pollutants, including oil and dispersants, for over 15 years.
    My testimony today will focus on some effects and 
uncertainties regarding dispersant use. Related to this, I 
would like to stress two major points.
    First, significant data gaps in understanding the impacts 
of dispersants and dispersed oil exist, particularly with 
subsea application.
    Second, limited toxicological data is available to assess 
the use of alternate dispersants. The use of dispersants is a 
complex and controversial subject. They are examples of known 
pollutants purposely added to the marine environment. 
Dispersants are often proprietary mixtures containing solvents, 
surfactants, and other additives. They are used to redirect an 
oil slick by breaking it up into small droplets that move down 
into the water, spreading in three dimensions. They do not 
remove oil. They simply alter its chemical and physical 
properties, changing where it goes, where it ends up, and its 
potential effects. Sub-surface application keeps the oil in the 
water, preventing it from coming to the surface.
    With the Deepwater Horizon leak, dispersants are used to 
protect organisms from contacting the surface slick and to 
protect sensitive shorelines and wetlands from oil coming 
ashore. This protection is an environmental tradeoff at the 
expense of organisms in the water column and potentially those 
on the sea floor.
    As highlighted at a recent dispersant workshop, toxicity 
must be considered when a decision is made to apply chemical 
dispersants. Toxicity data based on short duration exposures 
and the risk of death to organisms are those most often used to 
assess how toxic a chemical is. Indeed, the EPA's National 
Contingency Plan Product Schedule listing suitable dispersants 
for use on oil spills details such test data, which is provided 
by the dispersant manufacturer.
    Dispersant toxicity depends on the specific dispersant and 
species under study. Recent reports have concluded that it is 
what the dispersants do to the oil that often drives toxicity 
rather than the inherent toxicity of the dispersant itself. 
However, it would be beneficial if dispersant toxicity could be 
further reduced. The correct formulations are stockpiled 
throughout the USA and are the ones currently used in the 
Deepwater Horizon leak.
    Recently, EPA directed BP to use a less toxic dispersant of 
similar or more effectiveness than Corexit. Fourteen 
dispersants are listed on the product schedule. Given EPA's 
maximum toxicity guidelines for the dispersant mixed with 
number 2 fuel oil, only three of these listed products would be 
appropriate for use.
    Other toxicological tests are also presented for each 
dispersant. Of concern is the wide variation in the toxicity 
values reported for the number 2 fuel oil alone and the 
reference toxicant between dispersants using the same test 
species. A reference toxicant is a toxic chemical that is used 
to demonstrate that the tests are performed correctly and that 
the data is scientifically robust and defensible. Similar 
toxicity values for the same reference toxicant should be 
obtained, irrespective of who carried out the tests.
    However, toxicity values for the reference toxicant differ 
by orders of magnitude, up to nearly 300-fold for the different 
dispersants. These discrepancies bring into question the 
accuracy and reliability of the tests.
    I believe it would be beneficial for the dispersant 
manufacturers, especially those small businesses who have 
limited funds available for toxicity tests, to have their 
products screened cost effectively and, more importantly, 
accurately by an independent toxicity testing center.
    At the University of Maryland Center for Environmental 
Science, a similar testing center has been in place since early 
2000. The Alliance for Coastal Technologies program is a NOAA-
funded initiative that acts as an independent test bed for 
aquatic sensor technologies and involves numerous partner 
facilities across the U.S.
    A similar type of program would be of benefit for current 
and future dispersant manufacturers. Each dispersant would be 
evaluated by three independent and EPA-certified testing 
laboratories. A federally or industry-funded center could 
provide this testing at no cost to dispersant manufacturers.
    I also recommend a workshop precedes these tests, 
reevaluating an updating the test methods, including additional 
tests. Chronic and sediment toxicity tests would be beneficial 
to understanding potential long-term effects of dispersant use.
    Chair Landrieu. Twenty seconds.
    Dr. Mitchelmore. In summary, Madam Chair and fellow 
Senators, the recent spill in the Gulf has brought us into 
uncharted territories, given the volume and duration of 
dispersant use and its novel application to the seabed. With 
more information we can be better prepared to deal with such 
disasters. Increased knowledge translates to better solutions, 
and we need that knowledge now.
    Thank you.
    [The prepared statement of Dr. Mitchelmore follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Chair Landrieu. Thank you very much.
    Mr. Costner.

STATEMENT OF KEVIN COSTNER, FOUNDER, COSTNER INDUSTRIES (CINC), 
   AND CO-FOUNDER, OCEAN THERAPY SOLUTIONS, WESTPAC RESOURCES

    Mr. Costner. Thank you, Madam Chairman, members of the 
Committee. Thank you for inviting me.
    We are here today because there are now some 60,000 barrels 
of oil gushing into the Gulf every 24 hours, with no end in 
sight. We are here today because a carefully crafted plan 
designed by the oil industry and rubber-stamped by the MMS 
claimed it could handle spills of up to 250,000 barrels a day, 
but turned out not to be a plan at all. We are all here, and 
now the whole world is watching as America fumbles its way 
through the greatest environmental disaster in history, and I 
find myself here because 17 years ago I thought I could play a 
part in this reoccurring nightmare.
    I have come here with a technology that was developed for 
this very moment we find ourselves in as a people, as a nation, 
as a neighbor to every country that shares the precious Gulf of 
Mexico. I am a private entrepreneur, a dreamer, if you will, 
who saw a problem and committed to a big idea. I took a 
technology from the Department of Energy in 1993. It was about 
6 inches tall. It was developed to separate metals. But what 
if? What if we could take that little idea, this little machine 
and scale it up to separate large volumes of oil from water? I 
believe that we could manufacture and deploy a rugged and 
portable machine under these harsh conditions. We would create 
five different sizes, with the largest being able to up to 200 
gallons per minute with both oil and water outputs at 99.9 
percent purity.
    In 2 years, the dream moved from research and development 
to a commercially viable product ready to be deployed anywhere 
in the world. This was done without the help of outside 
investors or Government grants. The price tag would be over $20 
million, and I would pay it. The need was clear: An industry 
that would operate year-round, 24 hours a day, in or near any 
body of water at depths and complexities that our modern oil 
industry are working in is going to experience spills. They are 
going to experience spills on a daily basis, large or small, 
accidental or otherwise, reported or not.
    I started a business without a guarantee of a market, but 
clearly there is a market out there. Did I expect the oil 
industry to open its arms when I presented an oil-water 
separator, a solution to their single greatest liability? Yes. 
Did I expect leaders here and abroad to recognize the 
importance of protection where we profit? Yes, I did. But I was 
wrong. The list of Government agencies, foreign and domestic 
oil companies who saw our technology more than a decade ago 
reads like a Who's Who of those who needed it, those who should 
have been looking for it, and probably more to the point, those 
who should have been developing it themselves.
    So what was the problem? Was it too small? Was it too 
portable? Was there already something like it in the big plan? 
I do not know. My big idea has been sitting quietly for 10 
years in a modest Nevada facility. Then 2 days ago, I got a 
call from Doug Suttles, COO of exploration and production for 
BP. He was pleased. He was excited. He told me that the machine 
worked. He told me that it was working against the dispersants, 
that it was handling the variations of oil mixtures and 
thickness present in the Gulf. He ordered 32 machines and told 
me that this represented the beginning of us working together, 
not only for this spill but for going forward, and that we 
would have a legitimate response in the future.
    I am proud that this technology can be part of the solution 
for the Gulf. Am I proud that this technology can be part of 
the solution in the Gulf? Yes. To a certain extent, to be 
completely honest, I feel vindicated. I think that perhaps I 
will call my mother.
    But this is not a Hollywood ending for me. The path to 
arrive at this moment was steep and formidable. That is why I 
have been called to testify before this Committee, to explain 
why 21st century technology has sat idly on the shelf for 10 
years when it could have been deployed as a first, most 
efficient responder to mitigate the Deepwater Horizon 
catastrophe.
    The business of oil spill cleanup is not pretty. It is not 
sexy. Safety never is. It is not a profit center. It is 
perfectly clear that the oil companies have not invested in 
cleanup technology to match their 21st century appetite in 
operations.
    In the last 2 weeks, my company began an exciting 
collaboration with Edison Schwest, the largest oil servicer in 
the Gulf. We are in the final stages of engineering emergency 
response ships that would be staged strategically throughout 
the Gulf, with the ability to be on site within 2 hours of an 
incident.
    I know my time has run out, but I would ask this Committee 
and the members and the Chair that I have waited 17 years to be 
here. I talk kind of slow, and I make long movies.
    [Laughter.]
    Chair Landrieu. Go ahead. You can have 2 minutes. Go right 
ahead, Mr. Costner.
    Mr. Costner. Thank you. Thank you.
    Together we are fashioning a more comprehensive plan that 
we would like to present before the lifting of the moratorium. 
It would fundamentally change the world's approach to oil spill 
recovery, but we have not stopped there. Ocean Therapy 
Solutions continues to push the envelope of progress, once 
again footing the bill for the R&D without help from industry 
or Government. I believe there are other small companies out 
there in the private sector just like us. How do we let them 
in? How do we create an environment that fosters and encourages 
investment in critical technologies? I leave that to this body, 
but you should know that negotiating your way as a small 
business through the bureaucratic maze that presently exists is 
like playing a video game that no one can master. It is like 
trying to get to the next level that does not exist.
    For me, advancing the technology for oil spill cleanup was 
a dream, not a business. It was not about improving my margins. 
I was not trying to even stay in the black. We were about 
trying to do something more. If we can find oil thousands of 
feet in the ground at depths that boggle the mind, then surely 
we have the technology to clean up our own mess, to find 
through photo imaging the giant black clouds of oil hidden, 
raging like death in the Gulf, posed to land on our beaches or 
escape to the Atlantic.
    Without a doubt, the oil industry has the resources to 
create ships to hunt these down and drain their killing 
capacity. They have the technology and intellect to take this 
head on. We can all be about something more.
    I can see that these spills are our collective problem, but 
they are not our collective responsibility. The economic burden 
falls squarely on the oil industry. For them to get over the 
bar of safety and pay the price is not too much to ask. It is 
not too much to ask for them to have to put in place the 
safeguards, the redundancies, and muster the sheer will to 
thrown an overwhelming response at the problem now and in the 
inevitable future. Anything less is dangerous, unacceptable, 
and the American people deserve better.
    We have a special moment in time. We have to get this 
right. Forty thousand men and women in the oil industry are out 
of work through no fault of their own. Fishermen have been 
sidelined. Service industries are paralyzed. Families that have 
survived on the plentiful resources of the Gulf do not know the 
quality of life that now awaits them.
    I would ask this Committee to consider the multidimensional 
role that this technology can play in safeguarding the water 
and putting people back to work. The oil industry does not have 
the time to evolve a plan. They have to act. This is an 
absolute tool. It creates inefficiency where there are no 
efficiencies. It represents a legitimate response to accidents 
that are going to happen, and it clears a path to lift the 
moratorium, if that is what the country wants.
    We are in a fight to protect our jobs, our way of life, and 
an ecosystem that cannot protect itself. We can put Americans 
back to work and bring an entire industry into the 21st century 
of oil spill response. It is important to remember that when 
there is a spill anywhere, we suffer everywhere. Our machine 
represents a common ground, a common sense, and an absolute 
reality that we can and must protect those resources that we 
all share.
    [The prepared statement of Mr. Costner follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Chair Landrieu. Thank you very much, Mr. Costner. You have 
been a hero on the screen, and let me say you are being a hero 
right now in real life, and we, particularly those of us along 
the Gulf Coast, so appreciate your balanced approach, your 
ability to represent not just your own company but thousands of 
businesses that, as Ms. Baird said, have been extraordinarily 
frustrated knowing they may have the solutions, but not being 
called on. I really sincerely appreciate the extraordinary 
effort that you are making, and others.
    Let me ask you this: You described this to me previously, 
but I would like you to describe publicly what happened when 
you went some 10 years ago to the offshore oil expo in Houston. 
Could you talk about that experience when you were excited 
about your machine and who you presented it to and what 
happened?
    Mr. Costner. Well, we had started by introducing the 
machine to all the oil companies, to the Coast Guard, to all 
the different agencies responsible for protecting the waters 
and got kind of the silent treatment. We then began to go to 
the expos where there--these are demonstrations where all the 
equipment that is designed to actually protect us in oil 
spills--booms and fancy helicopters and things like that--all 
occur. But the idea that there was some machine that would 
actually take the oil out of the water, I did not see anything.
    A very interesting story happened. My partner, John 
Houghtaling, actually went to Billy Nungesser in New Orleans at 
one point and said, ``I want to say something to you. I kind of 
have a crazy idea. It is an actor with kind of a magic 
machine.'' And Billy Nungesser said, ``Wait. Do not say a no 
word.'' He said, ``Before I was a politician, I was an oil man, 
and I saw that machine in Houston, and I know it works. Would 
you please call him for me?''
    So I have been to the agencies, and it is in my written 
testimony who I have been to. And it is a process, and so is 
life. And I have lived it, and I thank you for bringing the 
light of day to my company by inviting me here.
    Chair Landrieu. Well, and it should not be that hard for 
any company. Ms. Baird, I would like you to testify just 
briefly about your first experience, which was not just a few 
weeks ago, or your company's first experience with trying to 
present to the Federal Government a technology that might work 
even before this spill. Do you want to add anything to your 
testimony about that?
    Ms. Baird. I think that the thing to understand about our 
microbial solution is that the first open water application--
this was back in 1990 when the tanker Mega Borg exploded off 
the--about 57 miles off the coast of Galveston. And it was at 
that point that the State of Texas really kept a close eye on 
us and watched as we were able to remediate damage in the Gulf 
from crude oil back then. It was at that point that we were 
placed on the EPA contingency product plan and have remained 
there ever since.
    I think that the challenge that we faced is understanding 
which Government officials we should be meeting with. We, too, 
have been with Billy Nungesser down in Plaquemines Parish, and 
we have been with so many other fantastic and supportive 
Government agencies since then. I really think that everyone 
feels as though their hands are tied and no one wants to spend 
constituent tax dollars, you know, with the hope that BP is 
going to pay back. And I think that that has been one of the 
challenges that we have faced.
    Chair Landrieu. We have got to break through that barrier.
    Mr. Parker, you represent a small business. I want to give 
you an opportunity. There was some lengthy testimony so you do 
not have to repeat it, but on the comment of when you first 
approached the Federal Government with technology--and you have 
several technologies, so you can pick just one. Why don't you 
think they have accepted some of the things that you have 
presented to them?
    Mr. Parker. We started 12 years ago with the Federal 
Government going to RRT meetings. I think that their agenda 
is--sometimes what we do is not as important to them. You know, 
when the Space Shuttle Columbia went down, these RRTs have to 
deal with those things. When Katrina came through, they have to 
deal with it. Sometimes oil spills just are not priorities. And 
we have tried for 12 years to get pre-authorization. We have 
successfully gotten pre-authorization in three of the regions: 
the Caribbean, Region 3, Region 4, and recently since this 
bill, Region 6. But they have so much on their plate, and 
unfortunately, the folks that have to make the decision may not 
want to make that decision because they have to sign a 
document. And when they sign those documents, they are liable 
for those decisions. And they have put us through hell to try 
to get these technologies out.
    We have been one of the few vendors that have been 
successful at a lot of cost and a lot of time away from home 
and just a lot of struggles. But they are good folks. They just 
have a lot on their plates, and we do not know the reasons why 
we are not at the NRT level with all of technologies. Why do we 
have to go to each individual RRT meeting two times a year, 13 
different ones, and spend money just to preach the same story 
every time? I do not know the answers.
    Chair Landrieu. Okay. I am going to recognize Senator Snowe 
in a minute, but my final comment is really for you, Admiral. 
Unfortunately, I am now a veteran of disasters, representing a 
state that has been hit now by two extraordinary disasters. We 
were just recovering from Katrina and Rita. And what I 
witnessed close up in this contractor response, sometimes 
contractors--not all, but many of them are interested in making 
money in the wake of a disaster as opposed to serving the 
public. I can appreciate private businesses' efforts to make 
profit. But if these small businesses have to go to contractors 
who, on the one hand, could make lots of money using old 
technology that does not work or make a lot less money using 
new technologies that do work, what do you think they might do?
    The American people deserve a Government that will fight 
for them, regardless of whether a profit is to be made or not. 
I sure hope the Coast Guard can step up to this job.
    Senator Snowe.
    Senator Snowe. Thank you, Madam Chair, and I want to thank 
all of you for your testimony here today. Sorry for the 
incredible hardships that you have confronted along the way in 
terms of getting your technologies or your products approved 
during this monumental time in our nation's history. I think 
that is what is so tragic about all of this. I think most 
critically now is how best to remedy the situation that we find 
ourselves in, either procedurally or otherwise, to make sure 
that your technologies, your products get the attention that 
they deserve, and certainly at a time in which we should be 
maximizing the level of urgency in terms of delivering the 
resources necessary.
    So let me start with you, Mr. Smith, from your vantage 
point as an academic, and you are very familiar with the 
previous efforts. I find it stunning--I think we all do--that 
since Exxon Valdez we have failed to shape a contingency plan 
under any scenario, let alone a worst-case scenario. 
Regrettably, BP submitted a plan, its exploration plan of the 
worst-case scenario being 162,000 gallons a day. Obviously it 
is now up to 2.4 million gallons a day, so it is an Exxon 
Valdez every 4 days. So here we are.
    What would you recommend? From your position what can we do 
here and now? I want to go down the line here, because it is 
really important for us. It is an emergency, and it is urgent. 
We feel the desperation--of course, the Chair, who lives there 
in Louisiana, but I know every American is just wanting to do 
something. What can we do in Congress either to revamp this 
process--because clearly there is no single, synchronized, 
streamlined process that needs to be developed so that these 
technologies and products get the attention of the United 
States Government. I do not expect to relegate or subjugate the 
responsibilities in our public interest to a company. They have 
got their own objectives and goals. We have ours, which is the 
national interest. And that is what we have to deliver now.
    Thank you.
    Mr. Smith. Well, I think you have hit the nail on the head 
there. Before I was an academic, I spent 30-odd years in this 
industry, sometimes trying to sell new ideas to oil companies, 
sometimes on the buy side. But the major issue is one of 
credibility. You have got a long supply chain to support any of 
these drilling efforts. This field, if it had been successfully 
developed, would have cost upwards of $2 billion to bring 
online. People trust certain suppliers. They have prior 
experience, precedent with those suppliers. And it is extremely 
hard, as I said, during normal times to bring a new supplier 
into the chain. During an emergency it is virtually impossible.
    What I think the Government could do in a case like this is 
to sort of short-circuit that system and perhaps screen these 
ideas quickly, find the ones that were winners, and get those 
publicly supported so that when there is a list of 14 
suppliers, it is not just a matter of picking Nalco because 
that is the one you have always picked. There is more 
direction, more focus. I rarely end up defending the EPA, but I 
would say that in the case of the issue you had raised about 
Corexit, BP did write a response to that directive to Lisa 
Jackson, and in that response the comment was, ``It is great. 
We would love to use the other material. There is just simply 
not enough supply to do anything with.''
    Another thing the Government could do is say, well, this is 
a supply item that we should have available. It does not have 
to sit in the Government inventory. I mean, the skimmers you 
were talking about earlier, and Senator Levin was talking 
about, those pieces of equipment exist because the NRC was 
created at the strong suggestion of the Federal Government 
after one of the earlier spills. The reason we had 28 skimmers 
available was because they were directed to be built and 
financed by the oil companies.
    Senator Snowe. I think that is something that we have to do 
in the future and having a contingency with a warehouse with 
certain products and technologies available to deploy.
    Mr. Smith. I think that is absolutely correct.
    Senator Snowe. Mr. Parker, from your experience? I know you 
have been approved, as you mentioned, in four regions. Is that 
correct?
    Mr. Parker. Yes, ma'am.
    Senator Snowe. Regional response areas?
    Mr. Parker. Yes.
    Senator Snowe. So not Louisiana, but Alabama----
    Mr. Parker. Well, Louisiana just recently----
    Senator Snowe. Just recently.
    Mr. Parker. Just recently. It usually has taken us about 7 
years per region consecutively. It should not take that long. I 
mean, it is a very simple product. It has been proven. It has 
been around since 1994, so it should not have to happen. The 
things that we feel that need to be done, you are right, there 
is a document called the Selection Guide that was written by 
Region 3 and Region 4 and the Coast Guard which does look at 
all these products, which they do examine and they put them 
through the ARTES process. I think some funding to revamp the 
Selection Guide and make it a living document more so than it 
is today would help because these are scientists that actually 
know what they are doing, and they can take these 23,000 
products and put them through the testing that they need to be 
put through, improve them, and publish their performances and 
whether they are good or bad. It is a great document. It is 
available to everyone online, and I think that should be 
brought back to life, especially in light of what has happened 
today.
    Senator Snowe. Those are good suggestions. Thank you.
    Ms. Baird, from your difficult situation, I would like to 
also ask you how much have you spent so far in trying to get, 
you know, your product approved.
    Ms. Baird. Just in the last 59 days, thousands and 
thousands of dollars in travel expenses, expenditures, phones, 
you know, we average probably 80 phone calls a day per 
executive team member. The biggest problem is the time required 
to chase down each person. I mean, as you can probably attest, 
just to get through to each Senator takes so many levels of 
discussion with so many other stakeholders. You cannot even 
imagine the kind of time this has required of our firm, and 
this, of course--we have ceased all other business in an 
attempt to do what we know is the right thing to do.
    And think about this: We are on the EPA list and we are 
approved by most Gulf Coast states, and we are going through 
this. I cannot imagine someone with an innovative idea that is 
not already on these lists.
    So I think I agree with the points that this panel has 
made, which is that there really should be some sort of a fast-
track approach so that, you know, people that have gone through 
this vetting process are not left just out by themselves.
    Senator Snowe. Excellent. Excellent suggestion. Sorry you 
are going through it. I can only imagine the difficulty in all 
that.
    Dr. Mitchelmore.
    Dr. Mitchelmore. Thank you. For companies to have their 
dispersants considered, obviously they need to have toxicology 
tests so that they would be considered as suitable dispersants. 
However, we need to make sure that these tests are 
scientifically robust and that the companies are not going to 
testing facilities that are not giving them accurate and 
reliable and defensible data. And these tests should also be 
expanded to include other tests that may be able to give us 
some better information as to the longer-term effects of using 
dispersants and dispersed oil.
    And, indeed, in the whole realm of looking at the effects 
of dispersed oil, numerous recommendations were made by the 
National Research Council in 1989. I was on the panel in 2005 
that also looked at these dispersant issues. And it was 
surprising that even 16 years after the first report, some of 
the same recommendations regarding toxicity issues and other 
issues pertinent to dispersant use were still being recommended 
even with that 16-year data gap.
    So I would like to highlight that the recommendations in 
both of the NRC reports are actually looked at and future 
opportunities are made to be able to address these basic 
uncertainties and data gaps concerning dispersant use.
    Senator Snowe. Thank you, because I know there are 
extensive knowledge gaps, as you suggested and recommend in 
that report.
    Mr. Costner, I know you were rejected around 45 times by 
various Federal agencies over the course--was it 17 years or 
the last 10 years?
    Mr. Costner. I stand by all those numbers.
    [Laughter.]
    You know, I would like to say that I do not know how to 
solve that problem of committees. I do not work very well in 
committees. I work well with others, but I am not sure.
    I would say that my company over the last months has spent 
well over $1 million holding our breath to get that phone call 
that I did not think would ever come.
    What I would recommend, if I could, what I would demand, if 
I could, and I can do neither, so what I would beg--what I 
would beg the leaders in this country and the oil industry 
together would be, before you lift the moratorium, before you 
do that, to please have cleanup technology in place or at least 
on a way in a specific time that is designed to meet and match 
with full force the worst-case scenario that can be presented 
to us.
    Senator Snowe. Great idea. Absolutely right on point. All 
of you, thank you. That is absolutely right, each of you, and I 
thank you.
    Madam Chair, I would like to submit for the record from the 
EPA, in fact, on the surface application dispersant, they did 
send a directive on May 26th that BP shall eliminate the 
surface application of dispersants.
    Thank you.
    Chair Landrieu. Thank you. That will be submitted to the 
record.
    Senator Snowe. Thank you all.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Chair Landrieu. They have just called a vote, so we are 
going to have to wrap up this hearing, and I thank you. But on 
one final point, I want to ask the panelists to submit for the 
record--and you will receive this in writing from us, and the 
Coast Guard as well. Are the five categories clear enough and 
appropriate enough--one, oil-sensing improvements to response 
detection; two, oil well control and submerged oil response; 
three, traditional oil spill response; four, alternative oil 
spill response; five, oil spill damage assessment. If I were a 
small business and had a technology as described, I am not sure 
what category I would apply to. This could potentially be a 
first step. Get these categories clear, get them transparent, 
expedite the process so that the best technologies in America 
and around the world can be applied to a war that is being 
waged every day in the Gulf Coast.
    The meeting is adjourned. Thank you.
    [Whereupon, at 12:03 p.m., the Committee was adjourned.]



                      APPENDIX MATERIAL SUBMITTED

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                  <all>

</pre></body></html>
